TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Improved Oversight Is Needed to
                   Effectively Process Whistleblower Claims



                                           April 30, 2012

                              Reference Number: 2012-30-045




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


IMPROVED OVERSIGHT IS NEEDED                          TIGTA also determined that Whistleblower
TO EFFECTIVELY PROCESS                                Program officials did implement a quality review
WHISTLEBLOWER CLAIMS                                  process to ensure claims are accurately
                                                      controlled in the Entellitrak system. However,
                                                      guidance to employees did not specify that
Highlights                                            employees review the received date of a claim,
                                                      which is critical when reporting business results
Final Report issued on April 30, 2012                 to internal and external stakeholders. During
                                                      this review, TIGTA determined that additional
                                                      reports could be generated to evaluate the
Highlights of Reference Number: 2012-30-045
                                                      effectiveness of the Whistleblower Program.
to the Internal Revenue Service Director,
                                                      Also, timeliness standards for processing claims
Whistleblower Office.
                                                      have not been fully established, and the existing
                                                      monitoring process was not fully developed to
IMPACT ON TAXPAYERS                                   improve efficiencies with processing
The IRS has authority to pay awards to                whistleblower claims in the IRS operating
whistleblowers for credible information relating      divisions.
to violations of Internal Revenue laws that result    In August 2011, the Government Accountability
in the Federal Government’s recovery of taxes,        Office issued a report on the IRS’s
penalties, interest, and additional amounts           Whistleblower Program that included eight
collected. Without adequate oversight of              recommendations. These recommendations
whistleblower claims, the IRS is not as effective     focused on the IRS collecting more information
as it could be in responding timely to tax            in its claim tracking system and case processing
noncompliance issues. Also, the IRS’s effort to       activities, and incorporating more data when
improve compliance is important in reducing the       reporting on the effectiveness of the
Tax Gap and maintaining the integrity of the          Whistleblower Program.
voluntary tax compliance system.
                                                      WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT
                                                      TIGTA made no recommendations in this report
In August 2009, TIGTA issued a report citing          because the IRS Whistleblower Office is
deficiencies in the IRS’s internal controls and       addressing the Government Accountability
timely resolution of whistleblower claims. The        Office’s August 2011 report recommendations.
objective of this review was to follow up on the      The IRS plans to fully implement its corrective
adequacy of the corrective actions the IRS            actions to the Government Accountability Office
agreed to take on the Fiscal Year 2009 reported       report by October 15, 2012.
internal control weaknesses.
                                                      While TIGTA did not make any
WHAT TIGTA FOUND                                      recommendations in this report, the
The IRS did not fully and adequately address          Whistleblower Office provided comments
the prior reported internal control weaknesses        indicating that “direct access to the information
on the processing of whistleblower claims. In         system was not provided after discussions and
our prior report, TIGTA found that information        agreement between the Whistleblower Office
captured on three inventory systems was               and TIGTA management.” Additionally, the
inaccurate. In this review, TIGTA determined          Whistleblower Office commented that “it is
that employees manually transferred claim             important to note that no instances of errors in
information from the three systems into a single      the received data have been identified.”
inventory control system, Entellitrak. However,       TIGTA’s response to the IRS’s comments is
IRS officials did not ensure steps were taken to      included in the transmittal memorandum.
reconcile and correct the inaccurate information
that was reported in our Fiscal Year 2009
review.
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 April 30, 2012


 MEMORANDUM FOR DIRECTOR, WHISTLEBLOWER OFFICE

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Improved Oversight Is Needed to Effectively
                              Process Whistleblower Claims (Audit # 201130033)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has taken effective corrective actions to address previously identified weaknesses in
 processing claims from whistleblowers. In August 2009, we issued a report and made several
 recommendations to address internal control weaknesses identified during the review.1 The
 current audit was a part of our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 In August 2011, the Government Accountability Office issued a report2 on the IRS’s
 Whistleblower Program that included eight recommendations. These recommendations focused
 on the IRS collecting more information in its claim tracking system and case processing
 activities and incorporating more data when reporting on the effectiveness of the Whistleblower
 Program. We made no recommendations in this report because the Whistleblower Office is
 addressing the Government Accountability Office’s August 2011 report recommendations, and
 the IRS plans to implement corrective actions by October 15, 2012.
 While we did not make any recommendations in this report, the Whistleblower Office provided
 comments indicating that “direct access to the information system was not provided after
 discussions and agreement between the Whistleblower Office and Treasury Inspector General for
 Tax Administration (TIGTA) management.” The Whistleblower Office and TIGTA
 management actually agreed to an alternative method to obtain audit work from the case
 management system as a substitute for direct access so that the TIGTA could continue the audit.

 1
   Treasury Inspector General for Tax Administration, Ref. No. 2009-30-114, Deficiencies Exist in the Control and
 Timely Resolution of Whistleblower Claims (Aug. 2009).
 2
   Government Accountability Office, GAO-11-683, Tax Whistleblowers – Incomplete Data Hinders IRS’s Ability to
 Manage Claim Processing Time and Enhance External Communication (Aug. 2011).
                                  Improved Oversight Is Needed to
                              Effectively Process Whistleblower Claims



However, the alternative method was not effective, and the TIGTA did not receive direct access
to the case management system. Therefore, the TIGTA was unable to independently determine
whether the system data were reliable.
Additionally, the Whistleblower Office commented that “it is important to note that no instances
of errors in the received data have been identified.” As cited in the audit report, the TIGTA was
unable to validate the accuracy of the received date because independent and direct access to the
case management system was denied. Also, Whistleblower Office quality review procedures do
not specifically instruct employees to review the received date of a claim, which is critical when
reporting business results to internal and external stakeholders.
Management’s complete response to the draft report is included in Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                 2
                                             Improved Oversight Is Needed to
                                         Effectively Process Whistleblower Claims




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Implementation of Prior Treasury Inspector General for Tax
          Administration Recommendations Was Not Adequate ................................ Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – General Steps for Processing a Whistleblower Claim ......... Page 15
          Appendix V – Glossary of Terms ................................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
             Improved Oversight Is Needed to
         Effectively Process Whistleblower Claims




                Abbreviations

E-TRAK   Entellitrak
FY       Fiscal Year
GAO      Government Accountability Office
ICE      Informant Claims Examination
I.R.C.   Internal Revenue Code
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
SME      Subject Matter Expert
TIGTA    Treasury Inspector General for Tax Administration
                                         Improved Oversight Is Needed to
                                     Effectively Process Whistleblower Claims




                                                 Background

Internal Revenue Code (I.R.C.) Section (§) 76231 authorizes the Internal Revenue Service (IRS)
to pay awards to individuals for information that leads to the detection and punishment of
persons guilty of violating or conspiring to violate Internal Revenue laws. The IRS has had the
authority to pay awards to whistleblowers for many years. What is now § 7623(a) of the I.R.C.
has its origins in legislation Congress enacted in 1867. The original law provided the Secretary
with the authority “to pay such sums as he deems necessary for detecting and bringing to trial
and punishment persons guilty of violating the internal revenue laws or conniving at the same.”
In 1996, the purposes for which the IRS may pay awards were expanded, adding “detecting
underpayments of tax” as a basis for making an award.
On December 20, 2006, Congress passed the Tax Relief and Health Care Act of 20062 (hereafter
referred to as the Act of 2006). The Act of 2006 created § 7623(b) of the I.R.C. This section
sets forth a new framework for the consideration of whistleblower claims submitted. The 2006
amendments retained the prior law’s discretionary authority to pay awards (now § 7623(a)) and
added a new “shall pay” provision (§ 7623(b)) with statutory award percentages. To qualify for
a whistleblower award under § 7623(b), the information must relate to a:
          Tax noncompliance matter in which the tax, penalties, interest, additions to tax, and
           additional amounts in dispute exceed $2,000,000; and
          Taxpayer (and for individual taxpayers only, one whose gross income exceeds $200,000
           for at least one of the tax years in question).
If the submission does not meet the criteria for §7623(b) consideration, the IRS may consider it
for an award under the pre-Act discretionary authority (§7623(a)).
Before the 2006 amendments to § 7623, awards to whistleblowers were discretionary and IRS
policy limited the maximum award to $10 million. The 2006 amendments set limits on awards
as a percentage of collected proceeds and removed the exclusion of interest in computing
awards; however, they set no limit on the maximum award payable. The opportunity to receive
an award that is limited only as a percentage of collected proceeds resulted in an immediate
increase in high-dollar claims submitted to the IRS, some alleging hundreds of millions in tax
noncompliance.




1
    26 U.S.C. § 7623 (2004).
2
    Pub. L No. 109-432, 120 Stat. 2958 (2006).
                                                                                               Page 1
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



To comply with the Act of 2006, in early 2007 the IRS
created the Whistleblower Program Office, whose
                                                                    The Whistleblower Program is
primary responsibility is to manage and track                       responsible for managing and
whistleblower claims3 from initial receipt to final                  tracking whistleblower claims
closure, either through a rejection letter or an award               from initial IRS receipt to final
payment. In June and July 2010, Whistleblower                         whistleblower claim closure,
Program officials issued procedures4 describing the                 either through a rejection letter
                                                                         or an award payment.
Whistleblower Program structure and responsibilities.
Duties include:
       Reviewing and evaluating initial claim information filed for awards by whistleblowers.
       Monitoring claims throughout the investigation, examination, appeals, and collection
        processes.
       Determining the appropriate percentage for an award.
       Facilitating communication with whistleblowers and external and internal stakeholders.
       Processing whistleblowers’ claims for awards and calculating award amounts.
The process for filing a claim requires a whistleblower to submit a Form 211, Application for
Award for Original Information. Once received, the processing of a claim is determined by the
type of claim filed.
       For I.R.C. § 7623(a) claims, Informant Claims Examination5 (ICE) and Classification
        Unit employees in the Small Business/Self-Employed Division at the Ogden Campus in
        Ogden, Utah, conduct reviews of a whistleblower claim prior to the claim being
        forwarded to the IRS operating divisions for additional review by appropriate personnel.
       For I.R.C. § 7623(b) claims, Whistleblower Program analysts review a claim for
        indications of fraud to determine whether the claim warrants forwarding to the respective
        operating division’s subject matter experts (SME) for additional review. The operating
        divisions involved in whistleblower claims consist of the Small Business/Self-Employed
        Division, the Large Business and International Division, and the Tax Exempt and
        Government Entities Division.
If the initial review of a claim identifies indications of fraud, both types of whistleblower claims
are forwarded to the IRS’s Criminal Investigation for evaluation. Once a fraud assessment has
been completed, the respective claim is returned to the Whistleblower Office, and the claim


3
  See Appendix V for a glossary of terms.
4
  Internal Revenue Manual 1.1.26 (June 8, 2010) and 25.2.2 (July 2, 2010).
5
  Effective January 1, 2012, the ICE Unit, part of Campus Compliance in Ogden, Utah, was combined with the
Whistleblower Office, and the combined office is now the Whistleblower Office – Ogden.
                                                                                                        Page 2
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



process continues. Whistleblowers will receive awards based solely on what is collected
subsequent to the completion of the examination in the operating divisions and Criminal
Investigation. Because taxpayers may exercise their judicial appeal rights or enter into
alternative payment arrangements, the completion of this process can take years. See
Appendix IV for a chart of the general steps for processing a whistleblower claim.
The objective of this review was to follow up on the Treasury Inspector General for Tax
Administration’s (TIGTA) Fiscal Year (FY) 2009 report6 in which we made four
recommendations7 to improve the Whistleblower Program’s internal controls to ensure the timely
processing of I.R.C. § 7623(b) claims. This review was performed at the Whistleblower Office
in Washington, D.C., and the Small Business/Self-Employed Division ICE Unit in Ogden, Utah,
during the period September 2010 through August 2011.
During our audit period, the Government Accountability Office (GAO) also conducted a review
of the IRS’s Whistleblower Program. The GAO review focused on the I.R.C. § 7623(b)
expanded program for whistleblower claims established by the Act of 2006. The GAO also
reviewed the IRS’s use of I.R.C. § 6103 and compared the Whistleblower Program to other
Federal and State whistleblower programs. In August 2011, the GAO issued a report8 on the
Whistleblower Program that included eight recommendations. These recommendations focused
on the IRS collecting more information in its claim tracking system and case processing
activities and incorporating more data when reporting on the effectiveness of the Whistleblower
Program. We are making no recommendations in this report because the Whistleblower Office
is addressing the GAO’s August 2011 report recommendations, and the IRS plans to implement
corrective actions by October 15, 2012.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. During this review, Whistleblower Program officials declined our
request for direct access to their management information system, citing concerns on their
commitment to protect the identities of whistleblowers and taxpayers and their view that direct
access to the system was not consistent with “need to know” principles. The Inspector General
Act of 1978 sets forth the TIGTA’s authority to access all records, reports, audits, reviews,
documents, papers, recommendations, or other material available relevant to a matter within our
jurisdiction. The IRS’s decision to decline our request for direct and independent access to its
tracking and reporting system of whistleblower claims resulted in an inappropriate scope

6
  TIGTA, Ref. No. 2009-30-114, Deficiencies Exist in the Control and Timely Resolution of Whistleblower Claims
(Aug. 2009).
7
  The original report contained five recommendations; however, the recommendation to ensure whistleblowers were
protected against retaliation was addressed to Congress and outside of the IRS’s jurisdiction.
8
  Government Accountability Office, GAO-11-683, Tax Whistleblowers – Incomplete Data Hinders IRS’s Ability to
Manage Claim Processing Time and Enhance External Communication (Aug. 2011).
                                                                                                       Page 3
                                 Improved Oversight Is Needed to
                             Effectively Process Whistleblower Claims



limitation. As a result, the TIGTA was unable to complete planned tests to independently
evaluate the overall reliability of the Whistleblower Program’s management information system.
However, we believe that the evidence obtained during this review provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology are presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 4
                                  Improved Oversight Is Needed to
                              Effectively Process Whistleblower Claims




                                Results of Review

Implementation of Prior Treasury Inspector General for Tax
Administration Recommendations Was Not Adequate
As a result of our August 2009 audit report, the Whistleblower Office agreed to implement
actions to improve the overall effectiveness of the Whistleblower Program. During this review,
we followed up to assess the effectiveness of these corrective actions and found that the IRS did
not fully and adequately address the prior cited internal control weaknesses. Most corrective
actions taken have not been sufficient to appropriately accomplish the mission of the
Whistleblower Program. Specifically:
      Information captured from multiple systems and input into the single inventory control
       system was potentially inaccurate, and the quality review process was not sufficient for
       controlling the accuracy of claims.
      Information reports to evaluate the success of the Whistleblower Program and measure its
       impact on tax administration have not been fully instituted.
      Timeliness standards for processing claims are not sufficient and consistent.
      The established monitoring process did not incorporate steps to coordinate with the
       operating divisions to emphasize processing whistleblower claims timely.
The Standards for Internal Control in the Federal Government requires that monitoring should
assess the quality of performance over time and ensure that the findings of audits are promptly
resolved. By not fully implementing effective corrective actions, Whistleblower Program
officials are unable to adequately assess their program management practices and their support of
IRS priorities, as reflected in the IRS mission and strategic plan.

Information captured from multiple systems and input into the single inventory
control system was potentially inaccurate, and the quality review process was not
sufficient for controlling the accuracy of claims
In our FY 2009 report, we recommended that the Whistleblower Office ensure: 1) information
captured from the existing three systems and input into the newly implemented single inventory
control system is accurate and 2) claims are accurately controlled in the new inventory control
system. When following up on the adequacy of actions taken to address our prior report
findings, we found that Whistleblower Program employees manually transferred claim
information from the three existing systems into the Entellitrak (hereafter referred to as the
E-TRAK). The process used to input data into the E-TRAK showed that Whistleblower Program
                                                                                           Page 5
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



officials did not ensure steps were taken to reconcile and correct the inaccurate information that
we reported in our FY 2009 review. For example, employees compared information on a list of
claims to the paper files in their possession. However, these steps were completed after claims
were transferred to the E-TRAK and did not include specific instructions to verify the received
and referral dates.
IRS management advised us that they did not agree to ensure the information captured from the
three existing systems and input into the new system was corrected. Instead, they stated they
only agreed to ensure the data in the E-TRAK were accurate. Because of our inability to have
direct and independent access to the E-TRAK during this review, we were unable to conclusively
determine how many of the 1,973 claims identified during our FY 2009 review (that were
manually transferred into the E-TRAK) still contain inaccurate dates. Whistleblower Program
officials advised that they do not plan to take any additional actions to correct the transferred
data in the E-TRAK.
The IRS also responded that, based on its statistical sample, it established a quality control
process to ensure claims were accurate. During this review, we determined that Whistleblower
Program officials did implement a quality review process to ensure that claims were accurately
controlled in the E-TRAK. However, instructions to employees did not specify that employees
review the received date of a claim, which is critical when reporting business results to internal
and external stakeholders. The Whistleblower Office has one single performance goal—to
process claims within 60 calendar days from initial receipt to the date they are referred to the
operating division for examination. If the received date is incorrect, the Whistleblower Office
could be using unreliable data and, therefore, be reporting inaccurate business results.
The GAO’s August 2011 report also cited that the data in the E-TRAK were unreliable. As part
of its response to the GAO report, the Whistleblower Office stated it is conducting a
comprehensive analysis of case processing procedures with a realignment of duties, including
data collection, reporting, and information system changes. The IRS plans to implement its
corrective actions by March 15, 2012.9

Information reports to evaluate the success of the Whistleblower Program and
measure its impact on tax administration have not been fully instituted
In our FY 2009 review, we recommended that Whistleblower Program officials ensure reporting
capabilities were included in the E-TRAK to assist in program management and evaluation
activities. The IRS responded that it identified the need for the reporting capabilities, which it
indicated were completed by June 30, 2009. In this review, we determined that five


9
  On February 22, 2012, the IRS requested an extension until September 15, 2012, to finalize the GAO’s
recommendation to complete a comprehensive review of case processing procedures and implement data collection
and reporting corrective actions. The IRS cited two studies that have been commissioned to implement the changes.
As of the date of this report, the GAO had not responded to this corrective action extension request.
                                                                                                         Page 6
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



administrative reports and 23 detailed reports for monitoring and tracking the status of claims are
generated by the E-TRAK. These reports provide information on employees’ system access, the
age of the claims, the length of time a claim is with a Whistleblower Program analyst, and the
number of days a claim is in the possession of an operating division SME. However, we believe
the E-TRAK should generate additional reports to assist Whistleblower Program officials in
evaluating the effectiveness of the Program.
During this review, we learned that the Whistleblower Office generates reports for the
I.R.C. § 7623(b) claims in order to compute the age a claim has been with an operating division
SME. Whistleblower Program officials advised us that all whistleblower claims are tracked in
their management information system. As presented in Appendix IV of this report, the operating
divisions’ SMEs decide the merit of both types of claims and, therefore, determine whether a
claim will be recommended for examination. The generation of reports that focus on measuring
program results and process management issues will enable Whistleblower Program officials to
report on the overall effectiveness of the Whistleblower Program and its value to the Nation’s tax
administration system.
In its August 2011 report, the GAO addressed this issue and recommended that the
Whistleblower Program provide additional summary statistics in the annual reports to Congress.
The IRS responded to the GAO that, by October 15, 2012, it will include additional statistical
information in its FY 2012 annual report. As previously stated, the IRS Whistleblower Office is
conducting a comprehensive analysis of case processing procedures with a realignment of duties,
including data collection, reporting, and information system changes. The data collection and
reporting changes will provide additional statistical information for external reporting purposes.
The IRS plans to implement its corrective actions by March 15, 2012.10

Timeliness standards for processing claims are not sufficient and consistent
In our FY 2009 review, we recommended that Whistleblower Program officials establish written
procedures that include timeliness standards for processing I.R.C. § 7623(b) claims. The IRS’s
response indicated that it identified the need for standardized, written procedures for the
Whistleblower Program. As such, a procedural guide was developed that includes timeliness
standards and written procedures for processing claims. Our review of the procedural guide,
which supplements the Internal Revenue Manual (IRM),11 illustrates three timeliness standards
were established for the I.R.C. § 7623(a) claims. However, only one timeliness standard was
established for processing I.R.C. § 7623(b) claims. Our review of the existing timeliness


10
   On February 22, 2012, the IRS requested an extension until September 15, 2012, to finalize the GAO’s
recommendation to complete a comprehensive review of case processing procedures and implement data collection
and reporting corrective actions. The IRS cited two studies that have been commissioned to implement the changes.
As of the date of this report, the GAO had not responded to this corrective action extension request.
11
   IRM 25.2.2 (July 2, 2010).
                                                                                                         Page 7
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



standards identified a lack of uniform guidance in the processing of I.R.C. §§ 7623(a) and
7623(b) claims. Figure 1 reflects our analysis of the timeliness standards.
                        Figure 1: Analysis of the Timeliness Standards

                                                     Standards for                     Standards for
       Steps in the Claims Process
                                                I.R.C. § 7623(a) Claims           I.R.C. § 7623(b) Claims

                                                  To be issued within
     Issuance of letters acknowledging
                                               30 calendar days of receipt               No standard.
            receipt of the claim.
                                                      of the claim.
                                                  To be referred within             To be referred within
   Referral of the claim to the IRS
                                               90 calendar days of receipt           60 calendar days of
 operating divisions for examination.
                                                      of the claim.                 receipt of the claim.12
                                                To be issued within five
        Issuance of rejection letters          calendar days of receipt of
                                                                                         No standard.
            to whistleblowers.                the examination results from
                                                 the operating divisions.
 Source: The TIGTA’s comparison of standards established in the Whistleblower Program Procedural Guide dated
 November 20, 2009.

When asked why only one timeliness standard was established for the I.R.C. § 7623 (b) claims,
the IRS responded that the work is performed routinely. Compounded by the fact that there are
limited monitoring reports generated by the E-TRAK, this perspective does not provide
reasonable assurance that the Whistleblower Office is achieving its objectives and providing
effective customer service. As part of the GAO’s recommendation to provide additional
summary statistics in future annual reports to Congress, the GAO also suggested that the IRS
provide additional data on the length of time claims remain at each step of the review process
and the reasons for claim rejections. In its response to the August 2011 GAO report, the
Whistleblower Office responded that it is working to improve the process to ensure that all
operating divisions timely review the period that claims are under SME initial review. A
comprehensive analysis of case processing procedures, including a separate recommendation that
the operating division Commissioners be directed to set targets for completing SME review, will
be completed.



12
   There are a few exceptions for holding a claim in the Whistleblower Office beyond 60 calendar days, which
include the whistleblower providing supplemental information and Criminal Investigation conducting an extended
fraud review.
                                                                                                        Page 8
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



The targeted date for implementation of the corrective action is April 15, 2012.13 Additionally,
the IRS is working with the operating divisions to jointly develop target dates on review and
follow-up processes with a corrective action implementation date of October 15, 2012.

The established monitoring process did not incorporate steps to coordinate with
the operating divisions to emphasize processing whistleblower claims timely
In the FY 2009 review, we recommended that Whistleblower Program officials develop a
process to monitor the timely processing of whistleblower claims. The IRS responded that it
identified the need for monitoring cases, including processing time, and that monitoring had been
established by June 30, 2009. In this review, we determined that the Whistleblower Program’s
monitoring process includes a review (every 120 calendar days) of the Audit Information
Management System to determine the status of claims. This monitoring includes tracking the
number of calendar days a claim takes to complete various steps in the process, such as the
number of days claims are with an operating division SME. However, Whistleblower Program
officials have not used this information and coordinated with the operating divisions to reduce
the amount of time it takes to process claims.
We discussed this matter with Whistleblower Program officials and were advised that once the
claim is referred to the operating divisions, the Whistleblower Office has no authority to direct
the priority or time required to process and/or examine claims. IRS operating division personnel
advised us they do not rely on the Whistleblower Office to oversee their timely processing of
whistleblower claims. Claims are assessed as efficiently as possible for further examination, and
the process can be lengthy due to the complexity of a whistleblower claim. Ultimately, the goal
is to improve tax compliance and, when substantiated, recognize individuals for information that
leads to the detection and punishment of persons guilty of violating, or conspiring to violate, IRS
laws. The IRS’s effort to improve compliance is important in reducing the Tax Gap and
maintaining the integrity of the voluntary tax compliance system.
In its August 2011 report, the GAO stated that the Whistleblower Office does not have a
monitoring process to reduce the amount of time I.R.C. § 7623 (b) claims are with the SME in
two IRS operating divisions. The GAO results included a focus on improved accountability of
SME resources when processing claims. While additional resources are always beneficial for
product delivery, Whistleblower Program officials, in coordination with the operating division
officials, can better monitor the amount of time the operating division SMEs and examiners
expend to make their assessment on I.R.C. §§ 7623(a) and 7623(b) claims. The IRS responded
to the GAO that it is working to ensure all operating divisions timely review the period that

13
  On February 22, 2012, the IRS requested an extension until September 15, 2012, to finalize the GAO’s
recommendation to complete a comprehensive review of case processing procedures and implement data collection
and reporting corrective actions. The IRS cited two studies that have been commissioned to implement the changes.
As of the date of this report, the GAO had not responded to this corrective action extension request.


                                                                                                         Page 9
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



claims are under SME initial review. IRS officials stated that, by April 15, 2012,14 a
comprehensive analysis of case processing procedures, including a separate recommendation that
the operating division Commissioners be directed to set targets for completing SME reviews,
will be completed. For the remainder of FY 2012, the IRS will continue to work with the
operating divisions to define the follow-up process for SME review completions.




14
  On February 22, 2012, the IRS requested an extension until September 15, 2012, to finalize the GAO’s
recommendation to complete a comprehensive review of case processing procedures and implement data collection
and reporting corrective actions. The IRS cited two studies that have been commissioned to implement the changes.
As of the date of this report, the GAO had not responded to this corrective action request.
                                                                                                        Page 10
                                      Improved Oversight Is Needed to
                                  Effectively Process Whistleblower Claims



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has taken effective
corrective actions to address previously identified weaknesses in processing claims from
whistleblowers. To accomplish this objective, we:
I.      Determined whether corrective actions to address recommendations from our prior
        report1 were implemented and are effective.
        A. Determined whether the Whistleblower Program performed a physical reconciliation
           to ensure information transferred from the prior systems to the new system was
           accurate. In addition, we evaluated the quality review process developed to ensure
           claims are accurately controlled.
        B. Determined whether the E-TRAK2 generated management information reports useful
           for tracking the processing of claims and evaluating whether the Whistleblower
           Program is meeting its goals and objectives.
        C. Determined whether the Whistleblower Program established written procedures that
           included timeliness standards for processing claims.
        D. Determined whether the Whistleblower Program developed a process to monitor the
           timely processing of claims.
II.     Determined whether the Whistleblower Program established internal controls to ensure
        claims are processed in accordance with new IRM procedures.
        A. Determined whether the Whistleblower Program procedures were the same for
           I.R.C. §§ 7623(a) and 7623(b)3 claims.
        B. Analyzed the Tax Relief and Health Care Act of 20064 and IRM procedures for
           I.R.C. §§ 7623(a) and 7623(b) claims to identify any differences.
Scope Limitation
During this review, we requested and were denied direct and independent access to the E-TRAK.
As a result, we were precluded from independently assessing the reliability of data in the

1
  TIGTA, Ref. No. 2009-30-114, Deficiencies Exist in the Control and Timely Resolution of Whistleblower Claims
(Aug. 2009).
2
  See Appendix V for a glossary of terms.
3
  I.R.C. §§ 7623(a) and 7623(b) (2006).
4
  Pub. L No. 109-432, 120 Stat. 2958 (2006).
                                                                                                       Page 11
                                           Improved Oversight Is Needed to
                                       Effectively Process Whistleblower Claims



E-TRAK. We were advised by Whistleblower Program officials that we could not have access
to the E-TRAK because they had a commitment to protect the identity of whistleblowers and
taxpayers. In addition, access was on a “need to know” basis, and officials believed the reasons
we provided were not sufficient despite that our reasons included the authority granted us in the
Inspector General Act of 19785 to access all records, reports, audits, reviews, documents, papers,
recommendations, or other material available relevant to a matter within our jurisdiction.
Although we encountered this limitation, we believe that the evidence obtained provides a
reasonable basis for our findings and conclusions that the data in the E-TRAK are unreliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Whistleblower Program procedures for
timely and effectively routing, handling, and closing claims. We evaluated these controls
through discussions with Whistleblower Program and ICE Unit officials and by reviewing
procedures and processes used to route, handle, and close claims.




5
    5 U.S.C. app. §3 (amended 2008).
                                                                                          Page 12
                                Improved Oversight Is Needed to
                            Effectively Process Whistleblower Claims



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Director
Deborah Smallwood, Audit Manager
Cindy Harris, Senior Auditor
Richard Viscusi, Senior Auditor
Sylvia Sloan-Copeland, Auditor
Chanda Stratton, Auditor




                                                                                      Page 13
                              Improved Oversight Is Needed to
                          Effectively Process Whistleblower Claims



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Chief, Criminal Investigation SE:CI
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Director, Whistleblower Office SE:WO




                                                                              Page 14
                                       Improved Oversight Is Needed to
                                   Effectively Process Whistleblower Claims



                                                                                         Appendix IV

General Steps for Processing a Whistleblower Claim1


                Process Steps for                                     Process Steps for
         I.R.C. Section 7623(a)2 Claims                        I.R.C. Section 7623(b)3 Claims
                              Step 1: The whistleblower submits claim on a
                         Form 211, Application for Award for Original Application,
                             to the Whistleblower Office in Washington, D.C.
Step 2: The Whistleblower Office sends the claim       Step 2: The Whistleblower Office forwards the
to the ICE Unit in Ogden, Utah, for general            claim to a Whistleblower Program analyst for
research.                                              review, which includes research and identification
                                                       of fraud indicators.
Step 3: The ICE Unit forwards the claim to the         Step 3: If fraud indicators are identified, the claim
Classification Unit in Ogden for a decision on         is forwarded to Criminal Investigation for a fraud
whether to accept or reject the claim.                 evaluation. In addition, the claim is forwarded to
                                                       Criminal Investigation if the whistleblower
If accepted and fraud indicators are identified, the
                                                       contacted another Federal/State enforcement
claim is returned to the ICE Unit to forward to
                                                       agency, such as the Securities and Exchange
Criminal Investigation. If accepted and there are
                                                       Commission, Department of Justice, and Drug
no fraud indicators, the claim is returned to the
                                                       Enforcement Administration, and if there are
ICE Unit to be forwarded to the operating division
                                                       allegations of terrorist activity.
SME for review.
If rejected, the whistleblower is sent a rejection
letter and no additional work is done on the claim.
Step 4: For a claim with fraud indicators,             Step 4: Once the fraud evaluation is completed,
Criminal Investigation completes its fraud             Criminal Investigation returns the claim to the
evaluation and returns the claim to the ICE Unit to    Whistleblower Program analyst to forward to the
forward to the operating division SME.                 operating division SME.




1
  See Appendix V for a glossary of terms.
2
  I.R.C. § 7623(a) (2006).
3
  I.R.C. § 7623(b) (2006).
                                                                                                   Page 15
                                     Improved Oversight Is Needed to
                                 Effectively Process Whistleblower Claims




               Process Steps for                                      Process Steps for
         I.R.C. Section 7623(a) Claims                          I.R.C. Section 7623(b) Claims
 Step 5: The operating division SME decides             Step 5: The operating division SME decides
 whether there is merit for forwarding the claim to     whether there is merit for forwarding the claim for
 the operating division to conduct an examination       an examination of the alleged tax noncompliance
 of the alleged tax noncompliance identified on         identified on filed tax returns. According to the
 filed tax returns.                                     IRS, the SME’s determination process on whether
                                                        an examination is warranted is extensive.
 If the operating division SME decides there is no
                                                        Generally, 7623 (b) claims are more complicated
 merit for an examination, the claim is returned to
                                                        than 7623 (a) claims and, therefore, are more
 the ICE Unit to send a rejection letter to the
                                                        labor-intensive, requiring more effort to obtain
 whistleblower.
                                                        additional information, conduct appropriate
                                                        interviews, and determine the legal complexities
                                                        between the IRS and the taxpayer.
                                                        If the operating division SME decides there is no
                                                        merit for an examination, the claim is rejected and
                                                        returned to the Whistleblower Program analyst to
                                                        forward to the Whistleblower Program Director for
                                                        agreement and to send a rejection letter to the
                                                        whistleblower.
 Step 6: The operating division completes its           Step 6: If the claim has merit, the operating
 examination and returns its results to the ICE Unit.   division completes its examination and returns its
                                                        results to the Whistleblower Program analyst.
 Step 7: The ICE Unit monitors the IRS’s                Step 7: The Whistleblower Program analyst
 collection of the amount owed and/or the appeal        monitors the IRS’s collection of the amount owed
 process for the assessed tax.                          and/or the appeal process for the assessed tax.
 Step 8: The ICE Unit forwards the claim package        Step 8: The Whistleblower Program analyst
 to the Whistleblower Program Director for final        forwards the claim with a suggested award
 approval of the award.                                 percentage to the Whistleblower Program Director
                                                        for approval of the award.
Source: TIGTA analysis of the Whistleblower Program’s IRM procedures.




                                                                                                   Page 16
                                         Improved Oversight Is Needed to
                                     Effectively Process Whistleblower Claims



                                                                                  Appendix V

                                       Glossary of Terms

Audit Information Management System – An IRS computer system that provides inventory
and activity control of active examinations.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Classification Unit – The unit that receives I.R.C § 7623(a)1 claims to determine whether
submitted information is sufficient for forwarding to the operating divisions for examination.
Collected Proceeds – Monies the IRS obtains directly from taxpayers that are based upon the
information whistleblowers provided.
Entellitrak (E-TRAK) – The management information system designed for the Whistleblower
Program to track claims and information that Congress and the Department of the Treasury seek
and require for measuring performance and adherence with the statutory provisions under the
Tax Relief and Health Care Act of 2006, hereafter referred to as the Act of 2006.2
Informant Claims Examination (ICE) Unit – The unit that receives I.R.C. § 7623(a) claims
from the Whistleblower Office, establishes the claims on the E-TRAK, and routes the claims to
and from the operating divisions for review. This unit notifies the whistleblower and
representative of the receipt of the claim and the claim number. In addition, it notifies the
whistleblower whether the claim has been rejected and when an award is to be paid, if an award
is determined to be owed.
Internal Revenue Code Section 6103 – I.R.C. § 6103 provides that tax returns and tax return
information shall be confidential, except as authorized. The definition of tax return information
includes a taxpayer’s identity and the nature, source, or amount of income, payments, receipts,
deductions, exemptions, credits, assets, liabilities, net worth, tax liability, and tax withheld.
Internal Revenue Code Section 7623(a) Claims – Whistleblower claims that were submitted
prior to the Act of 2006 and are claims relating to a tax noncompliance matter in dispute of less
than $2 million. For these cases, the IRS has the discretion to pay awards from collected
proceeds, including taxes, penalties, additions to tax, and additional related amounts. The
awards the Whistleblower Program officials determine for I.R.C. § 7623(a) claims are not
subject to Tax Court review.

1
    I.R.C. § 7623(a) (2006).
2
    Pub. L No. 109-432, 120 Stat. 2958 (2006).
                                                                                           Page 17
                                   Improved Oversight Is Needed to
                               Effectively Process Whistleblower Claims



Internal Revenue Code Section 7623(b)3 Claims – Whistleblower claims for which the amount
in dispute is more than $2 million. In the case of an individual taxpayer, gross income for at
least one year in question must exceed $200,000. The IRS “shall” pay awards from collected
proceeds in these cases, and the awards the Whistleblower Program officials determine are
subject to Tax Court review.
Operating Division Subject Matter Experts – Employees who have expert knowledge related
to specific industries established by the IRS to classify the type of work taxpayers and/or
businesses conduct. The SMEs make a determination on whether a claim should be forwarded
within the operating divisions for examination.
Tax Gap – The estimated difference between the amount of tax that taxpayers should pay and
the amount that is paid voluntarily and on time.
Whistleblower Claim – An assertion by an individual who reports to the IRS alleged tax
noncompliance.




3
    I.R.C. § 7623(b) (2006).
                                                                                         Page 18
              Improved Oversight Is Needed to
          Effectively Process Whistleblower Claims



                                                Appendix VI

Management’s Response to the Draft Report




                                                     Page 19
    Improved Oversight Is Needed to
Effectively Process Whistleblower Claims




                                           Page 20
